No. 194
IN THE SUPREME COURT OF THE UNITED STATES

Jeffrey Alan Olson,
Applicant,

v.
Commonwealth of Pennsylvania,
Respondent.

PROOF OF SERVICE

I, David T. Leake, hereby certify that Iam a member of the Bar of this Court, and
that I have this 16th day of January, 2020, caused the accompanying Application for an
Extension of Time Within Which to File a Petition for a Writ of Certiorari to be served
via first-class mail postage pre-paid and an electronic version of the document to be
transmitted via electronic mail to:

Special Deputy Attorney General Hugh Burns
Pennsylvania Office of Attorney General
Criminal Law Division
1600 Arch Street, Suite 300

Philadelphia, PA 19103
Email: hburns@attorneygeneral.gov

Le

January 16, 2020 David T. Leake
Counsel of Record
